CERTIFICATE OF COMPLIANCE
Case No. 20-388
Caption: Sun v. City of New York, et al.
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 1,934 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the fore­
going is true and correct.
Executed on December 29, 2020.

Nicole Garcia^7
Record Press, Inc.

Sworn to before me on
December 29, 2020
JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
Commission Expires September 16, 2023

TJ

Notary Public

